No. 20-___
IN THE

D&G, INC., DOING BUSINESS AS GARY’S FOODS; BLUE
GOOSE SUPER MARKET, INC.; NEMECEK MARKETS, INC.;
MILLENNIUM OPERATIONS, INC., DOING BUSINESS AS
DICK’S MARKET; ELKHORN-LUEPTOWS, INC.; JEFFERSON
LUEPTOWS, INC.; EAST TROY LUEPTOWS, INC.,
Petitioners,
v.
C&S WHOLESALE GROCERS, INC.,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eighth Circuit
PETITION FOR A WRIT OF CERTIORARI
Richard B. Drubel
Matthew J. Henken
BOIES SCHILLER
FLEXNER LLP
26 South Main Street
Hanover, NH 03755
(603) 643-9090
Daniel A. Kotchen
Daniel L. Low
KOTCHEN & LOW LLP
1745 Kalorama Road NW,
Suite 101
Washington, DC 20009
(202) 471-1995

Eric F. Citron
Counsel of Record
Charles H. Davis
Erica Oleszczuk Evans
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
ec@goldsteinrussell.com

(additional counsel listed on inside cover)

W. Joseph Bruckner
Kate M. Baxter-Kauf
LOCKRIDGE GRINDAL
NAUEN P.L.L.P.
100 Washington Avenue
South, Suite 2200
Minneapolis, MN 55401
(612) 339-6900

QUESTION PRESENTED
The Sherman Act treats certain agreements
among competitors as illegal per se, without regard to
any claimed pro-competitive benefits of the arrangement. These per se violations include price fixing, bid
rigging, and horizontal agreements among competitors to divide up markets.
Here, the plaintiffs sought to present two separate
per se market-division theories to the jury: (1) that the
competitor defendants had agreed to allocate territories; and (2) that the defendants had agreed to allocate
particular customers. But over the express objection
of the plaintiffs, the Court refused to instruct the jury
that these theories—if proven—represented separate
and independently sufficient per se violations of the
Sherman Act. Instead, the district court imposed—
and the Eighth Circuit affirmed—a requirement that
the plaintiffs prove both a territorial allocation and a
customer allocation to establish a per se violation. In
doing so, the Eighth Circuit created a disagreement
among the courts of appeals over whether a customer
allocation agreement is a per se violation separate
from any theory of territorial allocation.
The question presented is:
Whether an agreement between horizontal competitors not to compete for certain customers is a per se
violation of the Sherman Act, separate from the per se
theory of territorial allocation?

ii
RULE 29.6 STATEMENT
None of the petitioners has a parent corporation,
and no publicly held company owns 10% or more of any
of the petitioners’ stock.

iii
RELATED PROCEEDINGS
Proceedings directly on review:
D&G, Inc. v. C&S Wholesale Grocers, Inc. (In re
Wholesale Grocery Products Antitrust Litigation),
No. 18-2121 (8th Cir. Apr. 27, 2020)
In re Wholesale Grocery Products Antitrust Litigation,
No. 0:09-md-02090-ADM-TNL (D. Minn. May 23,
2018; Apr. 20, 2018)
Other related proceedings:
King Cole Foods, Inc. v. SuperValu, Inc. (In re
Wholesale Grocery Products Antitrust Litigation),
No. 11-3768 (8th Cir. Feb. 13, 2013)
Blue Goose Super Market, Inc. v. SuperValu, Inc.
(In re Wholesale Grocery Products Antitrust
Litigation), No. 11-3773 (8th Cir. Feb. 13, 2013)
D&G, Inc. v. SuperValu, Inc. (In re Wholesale Grocery
Products Antitrust Litigation), No. 13-1297
(8th Cir. May 21, 2014)
Millennium Operations, Inc. v. SuperValu, Inc. (In re
Wholesale Grocery Products Antitrust Litigation),
No. 15-1786 (8th Cir. Mar. 1, 2017)
Colella’s Super Market, Inc. v. SuperValu, Inc. (In re
Wholesale Grocery Products Antitrust Litigation),
No. 15-3089 (8th Cir. Mar. 1, 2017)
JFM Market, Inc. v. SuperValu, Inc. (In re Wholesale
Grocery Products Antitrust Litigation),
No. 15-3174 (8th Cir. Mar. 1, 2017)
JFM Market, Inc. v. SuperValu, Inc. (In re Wholesale
Grocery Products Antitrust Litigation),
No. 15-8014 (8th Cir. Sept. 30, 2015)

iv
D&G, Inc. v. SuperValu, Inc. (In re Wholesale Grocery
Products Antitrust Litigation), No. 16-8019
(8th Cir. Nov. 7, 2016)

v
TABLE OF CONTENTS
QUESTION PRESENTED ........................................... i
RULE 29.6 STATEMENT ........................................... ii
RELATED PROCEEDINGS....................................... iii
TABLE OF AUTHORITIES ...................................... vii
PETITION FOR A WRIT OF CERTIORARI .............. 1
OPINIONS BELOW .................................................... 1
JURISDICTION........................................................... 1
RELEVANT STATUTORY PROVISIONS ................. 1
PRELIMINARY STATEMENT ................................... 2
STATEMENT OF THE CASE..................................... 4
I.

Legal Background ................................................. 4

II. Factual Background and Proceedings Below ........ 6
REASONS FOR GRANTING THE WRIT ................ 10
I.

There Is Now a Division Among the Courts of
Appeals as to Whether Customer Allocation
and Territorial Allocation Are Separate
Per Se Violations of the Sherman Act ................ 11
A. Territorial allocations between
horizontal competitors have long been
held per se illegal .......................................... 11
B. Unlike the Eighth Circuit, several other
circuits treat customer allocation
agreements as independent, per se illegal
agreements .................................................... 14

vi
II. The Eighth Circuit’s Effective Elimination of
Customer Allocation as a Separate, Per Se
Violation of the Sherman Act Is an Important
Error of Law ........................................................ 21
A. The Eighth Circuit’s reasoning is flawed....... 21
B. The Eighth Circuit’s rule will harm
customers if allowed to stand....................... 25
III. This Case Is an Ideal Vehicle for Correcting
This Error and Resolving This Split................... 27
CONCLUSION .......................................................... 32
APPENDIX A: Court of Appeals Opinion
(8th Cir. 2020) ............................................................ 1a
APPENDIX B: District Court Transcript of Jury
Trial Proceedings (excerpt) (D. Minn. 2018)............. 9a
APPENDIX C: Court of Appeals Order
(8th Cir. 2020) .......................................................... 15a
APPENDIX D: District Court Judgment
(D. Minn. 2018) ........................................................ 16a
APPENDIX E: District Court Amended
Judgment (D. Minn. 2018) ...................................... 17a
APPENDIX F: District Court Jury Instructions
(excerpts) (D. Minn. 2018) ....................................... 21a
APPENDIX G: District Court Special Verdict
Form (D. Minn. 2018) .............................................. 24a

vii
TABLE OF AUTHORITIES
Cases
Addyston Pipe & Steel Co. v. United States,
175 U.S. 211 (1899) .................................................. 6
Admiral Theatre Corp. v. Douglas Theatre Co.,
585 F.2d 877 (8th Cir. 1978) .................................. 14
Am. Motor Inns, Inc. v. Holiday Inns, Inc.,
521 F.2d 1230 (3d Cir. 1975) ................................. 14
Arizona v. Maricopa Cnty. Med. Soc’y,
457 U.S. 332 (1982) ............................................ 5, 13
Blackburn v. Sweeney,
53 F.3d 825 (7th Cir. 1995) .................................... 13
Bonner v. City of Prichard,
661 F.2d 1206 (11th Cir. 1981) .............................. 18
Copperweld Corp. v. Indep. Tube Corp.,
467 U.S. 752 (1984) .................................................. 6
Hahn v. Or. Physicians’ Serv.,
868 F.2d 1022 (9th Cir. 1988) ................................ 14
Hammes v. AAMCO Transmissions, Inc.,
33 F.3d 774 (7th Cir. 1994) ............................ passim
Leegin Creative Leather Prods., Inc. v.
PSKS, Inc.,
551 U.S. 877 (2007) .............................................. 4, 5
Midwest Underground Storage, Inc. v. Porter,
717 F.2d 493 (10th Cir. 1983) ................................ 17
Nat’l Petroleum Refiners Ass’n v. FTC,
482 F.2d 672 (D.C. Cir. 1973) ................................ 14
Nat’l Soc’y of Prof’l Eng’rs v. United States,
435 U.S. 679 (1978) .................................................. 4
Palmer v. BRG of Ga., Inc.,
498 U.S. 46 (1990) .................................. 6, 11, 13, 20

viii
Seagood Trading Corp. v. Jerrico, Inc.,
924 F.2d 1555 (11th Cir. 1991) .............................. 13
Serv. Merch. Co. v. Boyd Corp.,
722 F.2d 945 (1st Cir. 1983) .................................. 14
State Oil Co. v. Khan,
522 U.S. 3 (1997) ...................................................... 4
Stephen Jay Photography, Ltd. v.
Olan Mills, Inc.,
903 F.2d 988 (4th Cir. 1990) .................................. 14
Timken Roller Bearing Co. v. United States,
341 U.S. 593 (1951) .................................................. 6
United States v. Cadillac Overall Supply Co.,
568 F.2d 1078 (5th Cir. 1978) ........................ passim
United States v. Consol. Laundries Corp.,
291 F.2d 563 (2d Cir. 1961) ......................... 6, 14, 15
United States v. Coop. Theatres of Ohio, Inc.,
845 F.2d 1367 (6th Cir. 1988) ................ 6, 14, 16, 17
United States v. Flom,
558 F.2d 1179 (5th Cir. 1977) ............................ 6, 16
United States v. Goodman,
850 F.2d 1473 (11th Cir. 1988) .............................. 18
United States v. Pa. Refuse Removal Ass’n,
357 F.2d 806 (3d Cir. 1966) ................................... 18
United States v. Rose,
449 F.3d 627 (5th Cir. 2006) .................................. 16
United States v. Sealy, Inc.,
388 U.S. 350 (1967) .................................................. 6
United States v. Socony-Vacuum Oil Co.,
310 U.S. 150 (1940) .................................................. 5
United States v. Suntar Roofing, Inc.,
897 F.2d 469 (10th Cir. 1990) .................... 14, 17, 18

ix
United States v. Topco Assocs.,
405 U.S. 596 (1972) ........................................ passim
In re Wholesale Grocery Prods. Antitrust Litig.,
752 F.3d 728 (8th Cir. 2014) .................................. 29
Statutes
Sherman Act, 15 U.S.C. § 1 et seq. .................... passim
15 U.S.C. § 1....................................................... passim
15 U.S.C. § 15(a) .......................................................... 2
28 U.S.C. § 1254(1) ...................................................... 1

PETITION FOR A WRIT OF CERTIORARI
Petitioners D&G, Inc., d/b/a Gary’s Foods; Blue
Goose Super Market, Inc.; Nemecek Markets, Inc.;
Millennium Operations, Inc., d/b/a Dick’s Market;
Elkhorn-Lueptows, Inc.; Jefferson Lueptows, Inc.;
East Troy Lueptows, Inc. (collectively, petitioners or
plaintiffs) respectfully petition for a writ of certiorari
to review the judgment of the United States Court of
Appeals for the Eighth Circuit.
OPINIONS BELOW
The opinion of the court of appeals (Pet. App. 1a8a) is reported at 957 F.3d 879. The relevant determinations of the district court (id. at 9a-14a) are unpublished.
JURISDICTION
The judgment of the court of appeals was entered
on April 27, 2020. A petition for rehearing was denied
on June 9, 2020 (Pet. App. 15a). On March 19, 2020,
the Court extended the time within which to file a petition for a writ of certiorari to 150 days from the date
of an order denying a timely petition for rehearing.
This Court has jurisdiction under 28 U.S.C. § 1254(1).
RELEVANT STATUTORY PROVISIONS
15 U.S.C. § 1 provides:
Every contract, combination in the form of
trust or otherwise, or conspiracy, in restraint
of trade or commerce among the several
States, or with foreign nations, is declared to
be illegal. Every person who shall make any
contract or engage in any combination or conspiracy hereby declared to be illegal shall be

2
deemed guilty of a felony, and, on conviction
thereof, shall be punished by fine not exceeding $100,000,000 if a corporation, or, if any
other person, $1,000,000, or by imprisonment
not exceeding 10 years, or by both said punishments, in the discretion of the court.
15 U.S.C. § 15(a) provides in relevant part:
Except as provided in subsection (b), any person who shall be injured in his business or
property by reason of anything forbidden in
the antitrust laws may sue therefor in any
district court of the United States in the district in which the defendant resides or is
found or has an agent, without respect to the
amount in controversy, and shall recover
threefold the damages by him sustained, and
the cost of suit, including a reasonable attorney’s fee.
PRELIMINARY STATEMENT
Petitioners are small, Midwestern family-owned
retail grocery stores who allege that the two largest
grocery wholesalers in the United States—C&S
Wholesale Grocers (C&S) and SuperValu, Inc. (SuperValu)—agreed as horizontal competitors to allocate
both (1) certain territories and (2) certain customers in
violation of the Sherman Act. More specifically, plaintiffs alleged both (1) that C&S agreed with SuperValu
to split up the Midwest and New England markets between themselves, and (2) that, even if C&S and SuperValu had not allocated the entire Midwest territory
in this way, they had agreed not to compete for certain
Midwest customers. Plaintiffs presented evidence to

3
support both of these per se theories at trial, and expressly asked the district court to instruct the jury
that either showing was sufficient to establish a per se
Sherman Act violation. But the district court refused
and required the jury to find that the defendants
agreed “to divide territories and customers,” Pet. App.
24a (emphasis added). The jury did not so find, and
presented with the same argument that these should
have been regarded as separate and independently
sufficient per se violations of the Sherman Act, the
Eighth Circuit affirmed.
This Court should review that decision for three
reasons.
First, in failing to hold that plaintiffs’ customer allocation claim should be adjudicated separately by the
jury from its territorial allocation claim, and in failing
to find that a customer allocation agreement constitutes a separate per se violation of the Sherman Act,
the Eighth Circuit strayed from this Court’s precedent—and split from decisions of the Second, Fifth,
and Seventh Circuits addressing similar fact patterns.
Second, the Eighth Circuit’s erroneous decision
undermines the very purpose of per se treatment under the antitrust laws. Every other circuit court that
has heard the issue has held that territorial allocation
and customer allocation are each, separately, per se violations of the Sherman Act. This is consistent with
one hundred years of jurisprudence that agreements
among horizontal competitors not to compete along
any axis are so plainly anticompetitive that no elaborate study of the industry is needed to establish their
illegality. That includes agreements not to compete on
price, agreements not to compete within certain terri-

4
tories, agreements not to compete over particular customers, and agreements to divide up markets in any
other ingenious way that horizontal cartelists can devise.
Third, this case is an ideal vehicle to consider this
important issue. It explicitly and cleanly highlights
the precise issue before the Court, and the error below
quite likely affected the outcome of the jury’s deliberations. Plaintiffs never received a jury’s consideration
of their independent and sufficient customer allocation
claim. As a result, this Court should grant the petition
and reverse.
STATEMENT OF THE CASE
I.

Legal Background

Section 1 of the Sherman Act, 15 U.S.C. § 1 et seq.,
prohibits “[e]very contract, combination in the form of
trust or otherwise, or conspiracy, in restraint of trade
or commerce among the several States, or with foreign
nations.” 15 U.S.C. § 1. This Court has construed this
language as “outlaw[ing] only unreasonable restraints.” Leegin Creative Leather Prods., Inc. v.
PSKS, Inc., 551 U.S. 877, 885 (2007) (quoting State Oil
Co. v. Khan, 522 U.S. 3, 10 (1997)). But while this
Court has made clear that this “rule of reason” is “the
accepted standard for testing whether a practice restrains trade in violation of § 1,” id., it has also held
that practices that are “so plainly anticompetitive that
no elaborate study of the industry is needed to establish their illegality” are treated as per se unlawful under the Act, Nat’l Soc’y of Prof’l Eng’rs v. United States,
435 U.S. 679, 692 (1978). A “per se rule is appropriate
only after courts have had considerable experience
with the type of restraint at issue.” Leegin, 551 U.S.

5
at 886. But once the courts have found a restraint to
fall within the per se rule, such restraints are deemed
unlawful without further consideration of the practices’ alleged procompetitive effects in any given case.
See id.; Arizona v. Maricopa Cnty. Med. Soc’y, 457 U.S.
332, 349-50 (1982).
The archetype of a per se violation is a horizontal
agreement among competitors to raise price or restrict
output. Such cartelization is plainly anti-competitive,
largely because it wholly short-circuits the process
through which competition corrects for unduly high
prices or low supplies of goods for customers. United
States v. Socony-Vacuum Oil Co., 310 U.S. 150, 218,
225-26 n.59 (1940). Cartels are not the only per se violations, however: Other agreements among competitors likewise bypass the competitive process to customers’ unambiguous detriment. A particularly troublesome example occurs when competitors agree to
avoid competing altogether for certain segments of
business. Accordingly, such “horizontal agreements
among competitors ... to divide markets” are likewise
treated as per se violations of the Sherman Act. Leegin, 551 U.S. at 886. And so, if a plaintiff proves that
the defendant engaged in such a naked market division, a violation is established without any further inquiry into the “reasonableness of [the] individual restraint in light of the real market forces at work” in
any particular case. Id.
What makes collusive market division so plain a
violation is that it prevents consumers and small businesses from accessing the competitive forces necessary
to combat anticompetitive prices. For that reason, it
does not matter in theory or practice how cartelists
choose to divide up markets. They can segment the

6
market into distinct and mutually exclusive territories, United States v. Sealy, Inc., 388 U.S. 350 (1967);
Addyston Pipe & Steel Co. v. United States, 175 U.S.
211 (1899); they can divvy up individual customers,
United States v. Consol. Laundries Corp., 291 F.2d 563
(2d Cir. 1961); they can agree to stay out of each
other’s way for particular kinds of buyers, United
States v. Coop. Theatres of Ohio, Inc., 845 F.2d 1367
(6th Cir. 1988) (per curiam); or they can rotate customers by agreeing who will be the winning bidder each
time for a given customer, United States v. Flom, 558
F.2d 1179 (5th Cir. 1977). This Court has clearly understood that cartelists are creative, and that the
reach of the per se rule cannot be circumscribed by arbitrarily distinguishing one kind of industry or version
of an agreement not to compete from another. See, e.g.,
Timken Roller Bearing Co. v. United States, 341 U.S.
593 (1951), overruled in part on other grounds by Copperweld Corp. v. Indep. Tube Corp., 467 U.S. 752
(1984); United States v. Cadillac Overall Supply Co.,
568 F.2d 1078, 1088 (5th Cir. 1978). Accordingly,
agreements between competitors at the same level of
the market to allocate territories or customers in order
to restrain competition have been treated as per se violations of the Sherman Act for the last fifty years.
United States v. Topco Assocs., 405 U.S. 596, 608, 612
(1972); see also Palmer v. BRG of Ga., Inc., 498 U.S.
46, 49-50 (1990) (per curiam).
II. Factual Background and Proceedings Below
This petition arises from an antitrust case
brought by five classes of mostly small, family-owned
retail grocery stores against C&S, the largest grocery
wholesaler in the United States. Plaintiffs alleged

7
that C&S agreed with its horizontal competitor, SuperValu, the second-largest grocery wholesaler in the
United States, to allocate both (1) territories and
(2) customers, and that this agreement was a conspiracy to restrain trade in violation of the Sherman Act,
15 U.S.C. § 1. Pet. C.A. App. 1-2 ¶¶ 1-2; 10 ¶ 31; 1112 ¶ 36; 13 ¶ 39; 28-29 ¶¶ 76-79. Plaintiffs alleged
that this agreement had the purpose and effect of allowing SuperValu to charge supra-competitive prices
in the Midwest. Id. at 2 ¶ 3; 13-14 ¶ 40; 15 ¶ 44; 30
¶ 83. As a result, plaintiffs paid supra-competitive
prices for wholesale grocery products and services. Id.
Plaintiffs alleged that in conjunction with a formal written Asset Exchange Agreement (AEA) between C&S and SuperValu, those parties also agreed
to two separate and unwritten per se violations of the
Sherman Act. First, C&S and SuperValu agreed not
to compete in the Midwest by allocating that market
to SuperValu, while SuperValu exited the Northeast
market and left that area to C&S alone (the “territorial allocation claim”). Second, separately and in the
alternative, plaintiffs alleged that C&S and SuperValu had agreed not to compete for certain Midwest
customers—allocating those customers to SuperValu—even while permitting C&S to compete for other
Midwest customers (the “customer allocation claim”).
Throughout the proceedings below, plaintiffs were
careful to identify these as separate and independently sufficient theories of a per se Sherman Act
violation. For example, at the pre-trial conference,
plaintiffs explicitly confirmed that they were pursuing
both of these claims. See Resp. C.A. App. 13, 14 (Tr.
51:5-10, 53:1-12); Pet. C.A. App. 104:11-105:9.

8
Accordingly, the evidence presented at trial supported each of the two per se violations plaintiffs alleged. In particular, plaintiffs provided sufficient evidence to permit a reasonable jury to conclude that
C&S’s real agreement with SuperValu involved allocating territories (the Midwest and New England) rather than merely certain customers within those territories. See, e.g., Pet. C.A. App. 204. The direct, factual
evidence of this agreement was supported by expert
testimony regarding economic evidence that showed
that C&S had allocated the entire territory of the Midwest to SuperValu. See, e.g., id. at 123:8-125:15,
127:15-132:9, 133:4-7. Notably, however, plaintiffs’
theory of the case was that—even if the jury disagreed
that there had been such a complete territorial allocation—there was at least an agreement between C&S
and SuperValu not to compete over certain customers
within the Midwest region.
To that end, the jury heard separate evidence supporting plaintiffs’ customer allocation claim. See, e.g.,
Pet. C.A. App. 115:25-116:14, 140:8-142:1. For example, plaintiffs’ expert Dr. Jeffrey Leitzinger testified that C&S never competed for customers from its
distribution centers in Maple Heights, OH; Superior,
WI; Minneapolis, MN; and Laurens, IA. Id. at 120:24121:2, 122:3-23, 125:23-126:2. This evidence supported plaintiffs’ claim that C&S had at least agreed
to allocate certain Midwest customers to SuperValu,
even if their agreement permitted C&S to compete for
other Midwest customers out of other distribution centers.
In their closing argument, plaintiffs explicitly distinguished between their territorial allocation claim
and their customer allocation claim. Pet. C.A. App.

9
159:3-10; see also Pet. App. 10a-11a. Plaintiffs then
requested, but were denied, an instruction on customer allocation and a special verdict form question on
whether C&S agreed with SuperValu to allocate customers. See, e.g., Pet. C.A. App. 73. The district
court’s Jury Instruction No. 20 ultimately contained
no instruction on customer allocation at all, to which
plaintiffs objected. Pet. App. 9a-14a, 21a-23a. Rejecting plaintiffs’ argument, the court created a single instruction that required plaintiffs to prove both a territorial allocation and a customer allocation to prevail.
Id. at 21a-23a (Jury Instruction No. 20 requiring
plaintiffs prove that the real terms of C&S’s agreement with SuperValu were “to allocate customers and
territories along geographic lines”) (emphasis added);
see also id. at 11a-12a; id. at 24a (Special Verdict form
asking: “Did the Plaintiffs prove that C&S and SuperValu were competitors or potential competitors, and
that they entered into an Unwritten Agreement to divide territories and customers along geographic lines
which restricted competition more broadly than the
Asset Exchange Agreement?”) (emphasis added).
The jury did not find that C&S had committed
both a territorial allocation and a customer allocation
and so, as required by the special verdict form, found
no violation of the Sherman Act. Plaintiffs appealed.
On appeal, a panel of the Eighth Circuit affirmed.
The panel found that it was not error to require plaintiffs to prove that C&S agreed to allocate both customers and territories because, while plaintiffs argued
that C&S “agreed to allocate customers in the Midwest
and New England,” plaintiffs did not contend that
“C&S agreed to divide up customers outside those regions or to allocate those territories without allocating

10
customers in them.” Pet. App. 6a. The panel did not
address plaintiffs’ argument and evidence that C&S
agreed to allocate some customers within the Midwest
and New England without agreeing to allocate all of
them. Plaintiff’s petition for rehearing en banc was
denied on June 9, 2020 (id. at 15a), and this petition
followed.
REASONS FOR GRANTING THE WRIT
The decision below presents a straightforward error that is well-suited for this Court’s certiorari review. It is important that this Court clarify that the
antitrust laws are violated by any market allocation
agreement among horizontal competitors, whether
they agree to a typical geographical or territorial market-division scheme, or whether they agree more narrowly to allocate customers within overlapping territories. The Eighth Circuit’s holding failing to recognize customer allocation as a separate and sufficient
per se theory under the Sherman Act should therefore
be corrected. That holding conflicts with decisions of
the other courts of appeals recognizing customer allocation as an independent theory, as well as the relevant precedents of this Court. And this case presents
an especially good vehicle for addressing this conflict
because the plaintiffs very clearly sought to preserve
and present both of their market allocation theories,
and the courts below expressly decided to require an
agreement to allocate territories “and” customers, rather than territories “or” customers, as plaintiffs (correctly) requested.

11
I.

There Is Now a Division Among the Courts
of Appeals as to Whether Customer Allocation and Territorial Allocation Are Separate
Per Se Violations of the Sherman Act.

In its decision, the Eighth Circuit required that a
plaintiff alleging both customer and territorial allocations must prove the conspirator allocated both customers and territories to prevail in establishing a per
se violation, rather than proving either of these market-division schemes separately or individually. This
holding directly conflicts with the law in every other
circuit that has considered the issue. The cases in the
other circuits establish, correctly, that territorial allocation and customer allocation are separate per se violations of the Sherman Act.
A. Territorial allocations between horizontal competitors have long been held per
se illegal.
This Court has long held agreements “between
competitors at the same level of the market structure
to allocate territories in order to minimize competition” to be per se violations of the Sherman Act. United
States v. Topco Assocs., 405 U.S. 596, 608 (1972); see
also Palmer v. BRG of Ga., Inc., 498 U.S. 46, 49-50
(1990) (per curiam).
Since at least Topco, this Court has recognized
that both agreements to divide markets into distinct
territories and agreements limiting competition over
certain customers between horizontal competitors are
independent, per se violations of the Sherman Act. In
Topco, approximately 25 independent small to medium-sized grocery store chains formed a cooperative
association, Topco, to supply them with a line of items

12
marketed under the “Topco” trademark. 405 U.S. at
598. The member grocery stores owned and controlled
Topco, and through its bylaws, assigned each member
an exclusive territory where it could sell Topco products. Id. at 602. Additionally, bylaws prohibited member stores from selling wholesale products supplied by
the association without first receiving special permission from the association. Id. at 603.
The Court first addressed the territorial restrictions. It acknowledged that a classic example of a
Section 1 Sherman Act violation consists of “an agreement between competitors at the same level of the
market structure to allocate territories in order to
minimize competition,” and held that the horizontal
territorial restraints effectuated by Topco constituted
such a violation. 405 U.S. at 608, 610-11. Next, the
Court considered the association’s requirement that
its members receive permission before selling products
at wholesale. The Court determined that this restriction amounted to “regulation of the customers to
whom members of Topco may sell Topco-brand goods,”
and accordingly concluded that the restriction constituted a per se Sherman Act violation for this reason
separate from the territorial restraints. Id. at 612
(emphasis added). Indeed, the Court recognized that
like the territorial division scheme, the association’s
customer allocation conspiracy inhibited competition
between the association’s members and constituted a
“naked restraint[] of trade with no purpose.” Id. at
608, 610 (internal quotation marks omitted). Accordingly, this Court’s decision quite clearly implied that
proving either territorial allocation or customer allocation sufficed to establish a per se violation of the Sher-

13
man Act. See id. at 610; see also United States v. Cadillac Overall Supply Co., 568 F.2d 1078, 1088-89 (5th
Cir. 1978) (citing Topco for the proposition that customer allocation independently violates the Sherman
Act).
This Court also confirmed in Palmer that territorial allocation, on its own, constitutes a per se violation
of the Sherman Act. There, two bar exam preparation
course companies, Harcourt Brace Jovanovich Legal
and Professional Publications (HBJ) and BRG of Georgia, Inc. (BRG), entered into an agreement providing
BRG an exclusive license to market HBJ’s materials
in Georgia, requiring that BRG not compete with HBJ
outside Georgia, and requiring that HBJ not compete
with BRG inside Georgia. 498 U.S. at 47. The companies argued that this agreement did not constitute a
per se violation of the Sherman Act because there was
no evidence that they, while executing their purported
territorial allocation scheme, subdivided a market in
which they previously competed. Id. at 48. This Court
rejected that argument, explaining that “[e]ach [defendant] agreed not to compete in the other’s territories. Such agreements are anticompetitive regardless
of whether the parties split a market within which
both do business or whether they merely reserve one
market for one and another for the other.” Id. at 4950 (citing Arizona v. Maricopa Cnty. Med. Soc’y, 457
U.S. 332, 344 n.15 (1982)).
Since then, every court of appeals has recognized
that territorial allocation, alone, is a black letter per se
violation of Section 1, without any further requirement that there be an allocation of customers. See,
e.g., Blackburn v. Sweeney, 53 F.3d 825, 827-28 (7th
Cir. 1995); Seagood Trading Corp. v. Jerrico, Inc., 924

14
F.2d 1555, 1569 (11th Cir. 1991); Stephen Jay Photography, Ltd. v. Olan Mills, Inc., 903 F.2d 988, 995 (4th
Cir. 1990); United States v. Suntar Roofing, Inc., 897
F.2d 469, 478 (10th Cir. 1990); Hahn v. Or. Physicians’
Serv., 868 F.2d 1022, 1026 (9th Cir. 1988); United
States v. Coop. Theatres of Ohio, Inc., 845 F.2d 1367,
1371 (6th Cir. 1988) (per curiam); Serv. Merch. Co. v.
Boyd Corp., 722 F.2d 945, 950 (1st Cir. 1983); Admiral
Theatre Corp. v. Douglas Theatre Co., 585 F.2d 877,
892 (8th Cir. 1978); Cadillac, 568 F.2d at 1088 (5th
Cir.); Am. Motor Inns, Inc. v. Holiday Inns, Inc., 521
F.2d 1230, 1242 (3d Cir. 1975); Nat’l Petroleum Refiners Ass’n v. FTC, 482 F.2d 672, 683-84 (D.C. Cir. 1973);
United States v. Consol. Laundries Corp., 291 F.2d
563, 574 (2d Cir. 1961).
B. Unlike the Eighth Circuit, several other
circuits treat customer allocation agreements as independent, per se illegal agreements.
Consistent with the directive of Topco, it has long
been held that proving customer allocation, even without accompanying evidence of territorial market allocation, constitutes a per se violation of Section 1 of the
Sherman Act. Indeed, several courts of appeals outside of the Eighth Circuit have so held, and plaintiffs’
case would have been decided differently under the
standards articulated in those circuits. No court of appeals outside the Eighth has declined to recognize customer allocation as an independent per se violation,
whether coupled with a territorial allocation or not.
Even before Topco, the Second Circuit had recognized that customer allocation, without accompanying
evidence of territorial allocation, constitutes a per se

15
violation of the Sherman Act. Consol. Laundries, 291
F.2d 563. There, corporations, trade associations, and
individuals engaged in the linen supply business
agreed to allocate their customers. Id. at 567. Acknowledging that “certain types of restraint of trade
are unreasonable per se, including territorial division
of markets,” the Second Circuit held that proof of customer allocation also was sufficient to establish a per
se violation of the Sherman Act. Id. at 574-75 (“Assuming that customers were allocated in the case at
bar, no more need be proved; we agree that the per se
rule should be applied.”). This holding could not be
more inconsistent with the Eighth Circuit’s ruling below; it explicitly recognized that “no more need be
proved” than a customer allocation, condemning the
express requirement of the district court and the
Eighth Circuit in this case that plaintiffs prove both in
order to prevail on their customer allocation theory at
trial.
The Fifth Circuit likewise adopted this holding in
United States v. Cadillac Overall Supply Co. The conspirators in Cadillac consisted of industrial garment
suppliers who agreed to refrain from soliciting each
other’s existing customers. 568 F.2d at 1081. They
also orchestrated a system where, if a customer of one
conspirator stopped doing business with that conspirator and began doing business with a different conspirator, the two conspirators would trade customer
accounts until they each had an equivalent volume of
business. Id. Citing Consolidated Laundries, the
Fifth Circuit expressly considered and rejected the
conspirators’ argument that a horizontal restraint of
trade must be territorial to constitute a per se violation
of the Sherman Act. Id. at 1088-90. In doing so, the

16
Fifth Circuit held that customer allocation alone is
sufficient.* Id. at 1090 (“We hold that the allocation of
customers is a per se violation of Section One of the
Sherman Act.”). The Fifth Circuit’s assessment in Cadillac would lead to a different outcome for the plaintiffs here. The court in Cadillac was clear that any
horizontal allocation agreement by itself would constitute a per se violation of the Sherman Act—it need not
be combined with another kind of restraint (for example price fixing or a territorial division). Id. at 1088-89.
The Sixth and Tenth Circuits have also established that customer allocation, without proof of territorial allocation, suffices to establish a per se violation
of the Sherman Act. In United States v. Cooperative
Theatres of Ohio, Inc., the conspirators, two theater
booking agents, agreed to refrain from soliciting each
other’s theater customers in Ohio and West Virginia.
845 F.2d at 1368. At trial, the court instructed the
jury that “[a]n agreement between two competitors to
not attempt to become the booking agent for each
other’s customers is ... a per se unreasonable unrestraint of trade.” Id. at 1369. The jury found the two
theater booking agents guilty and they appealed, at-

*
Other Fifth Circuit cases have held that conspiracies
consisting of customer allocation, price fixing, and bid rigging
constitute per se violations of the Sherman Act. See United States
v. Rose, 449 F.3d 627, 630-32 (5th Cir. 2006) (“[C]onspiracies to
submit collusive, noncompetitive, rigged bids, allocate customers,
and fix prices are per se violations of the Sherman Act.”) (citing
inter alia Cadillac, 568 F.2d at 1090) (internal quotation marks
omitted); United States v. Flom, 558 F.2d 1179, 1183 (5th Cir.
1977) (“An agreement to fix prices, allocate customers, rig bids,
and coerce others to join the conspiracy violated the Act.”)
(alteration and internal quotations omitted).

17
tempting to distinguish their case from cases containing an “allocation of specific customers according to geographic location.” Id. at 1371 (emphasis added). But
the Sixth Circuit disagreed with the significance of
that distinction, holding that the conspirators’ agreement not to solicit each other’s customers constituted
a customer allocation scheme condemned as a per se
violation of the Sherman Act. Id. at 1373.
In United States v. Suntar Roofing, the Tenth Circuit also concluded that customer allocation independently constituted a per se violation of the Sherman Act. The plaintiffs there alleged that the conspirators, two roofing companies and their agents, conspired to divide customers among themselves for the
construction and installation of roofs in the Kansas
City metropolitan area. 897 F.2d at 472. The conspirators argued that the district court should have
analyzed the customer allocation allegations under a
rule of reason analysis, but the Tenth Circuit disagreed, holding “an agreement to allocate or divide customers between competitors within the same horizontal market constitutes a per se violation § 1 of the
Sherman Act.” Id. at 473. That court has also expressly distinguished between the two kinds of market
allocation, recognizing that either is sufficient for a per
se violation. See Midwest Underground Storage, Inc.
v. Porter, 717 F.2d 493, 497 n.2 (10th Cir. 1983) (“The
essence of a market allocation violation ... is that competitors apportion the market among themselves and
cease competing in another’s territory or for another’s
customers.”) (emphasis added). Notably, in Suntar
Roofing, the Tenth Circuit determined that a jury instruction providing that “a conspiracy to allocate customers is an agreement or understanding between

18
competitors not to compete for the business of a particular customer or customers,” adequately instructed
the jury as to the conspiracy element of a Sherman Act
violation, without any mention of territorial allocation. 897 F.2d at 474 (emphasis and alteration omitted). It is thus beyond doubt that the Tenth Circuit
would not have denied plaintiffs here the precise instruction that they requested, and that the Eighth Circuit refused.
The Third and Eleventh Circuits have implicitly
held the same, suggesting that they would draw the
same conclusion as the courts above. See United
States v. Goodman, 850 F.2d 1473, 1476 (11th Cir.
1988) (reversing convictions of two conspirators who
allocated customers within a discrete territory on
other grounds while emphasizing that “a customer allocation agreement alone is a per se violation of 15
U.S.C. § 1”); id. at 1476 n.5 (citing Cadillac as binding
precedent under Bonner v. City of Prichard, 661 F.2d
1206, 1207 (11th Cir. 1981) (en banc)); United States
v. Pa. Refuse Removal Ass’n, 357 F.2d 806, 808-09 (3d
Cir. 1966) (implicitly acknowledging customer allocation alone sufficient for per se treatment).
The Second, Third, Fifth, Sixth, Tenth, and Eleventh Circuit cases cited above are all instances where
customer allocation agreements have been analogized
to a form of a territorial agreement that, when proven
alone, is subject to per se treatment under the Sherman Act, whether or not a territorial element is also
present. But the Eighth Circuit’s error is perhaps best
illustrated by Judge Posner’s decision in Hammes v.
AAMCO Transmissions, Inc., where the Seventh Circuit demonstrated that customer allocation alone may
establish a per se Sherman Act violation even when

19
the allegations also contain a geographical component.
33 F.3d 774 (7th Cir. 1994). Hammes involved a conspiracy in which a franchisee-dealer of AAMCO was
required to join an advertising pool along with four
other dealers. Id. at 777. The advertising pool would
purchase advertisements in the Yellow Pages listing
each pool member’s telephone number and address
along with five other phone numbers that did not have
accompanying addresses and instead were only associated with general locations, such as a neighborhood
name. Id. When someone called one of these other
“phantom” phone numbers, the call would automatically be forwarded to an actual dealer in the pool
whose location was nearest to the neighborhood associated with the phantom number. Id. The plaintiff,
however, was excluded from this call-forwarding
scheme, and brought suit against AAMCO, the advertising pool, and the other pool members alleging a violation of the Sherman Act. Id.
While recognizing the geographical components of
the allegations, the Seventh Circuit characterized the
allegations as also establishing a customer allocation
conspiracy:
A type of conspiracy that has effects almost
identical to those of price-fixing and is treated
the same by the law is a conspiracy between
competitors to rotate or otherwise allocate
customers among the conspirators, so that
each customer faces a monopoly seller. The
AAMCO dealers in Indianapolis are located in
different parts of the city and each presumably has an advantage in competing for the
customers nearest to it. Under conditions of
unrestricted competition, customers on the

20
borderline of these zones of advantage would
be courted by two or more dealers. The allocation of these customers among the dealers
by means of automatic call forwarding from
phantom dealers supposedly located in the
borderline areas could eliminate competition
for customers who, not being within the gravitational field of any dealer by reason of proximity, would, were it not for the allocation,
have a real and not merely theoretical choice
between dealers. Such an out-and-out scheme
of customer allocation would be a per se violation of section 1.
33 F.3d at 782 (citing Palmer, 498 U.S. 46). Accordingly, while the Seventh Circuit recognized that the
dealers were using the advertising pool to divide customers along geographical lines, the Seventh Circuit
characterized this conspiracy as unlawful based solely
on its element of customer allocation, and therefore
did not require proof of both customer and territorial
allocation. Id.
As with the circuits above, the Seventh Circuit’s
analysis in Hammes would also result in a different
decision for the plaintiffs in the instant case. There,
the Seventh Circuit concluded that even if the plaintiffs had not alleged any different geographic location
or proximity for the customers involved, the customer
allocation itself would be a per se violation of Section 1.
33 F.3d at 782. Under the Eighth Circuit’s rule, however, the jury would be instructed that an “out-and-out
scheme of customer allocation” would not by itself establish a per se violation of the Sherman Act without
additional evidence of territorial allocation—evidence
the Seventh Circuit concluded it did not need. Id.

21
In sum, the Eighth Circuit’s sister circuits have
conclusively established that either territorial allocation or customer allocation may independently establish a per se violation of the Sherman Act. Indeed, as
illustrated by the Seventh Circuit’s decision in Hammes, customer or territorial allocation alone may create Sherman Act liability even when the conspiracy
contains elements of both. By requiring plaintiffs to
prove customer and territorial allocation in order to
establish Sherman Act liability, the Eighth Circuit’s
decision deviated from a well-founded rule applied by
the other circuits, and this Court’s intervention is now
necessary to correct that disagreement.
II. The Eighth Circuit’s Effective Elimination of
Customer Allocation as a Separate, Per Se
Violation of the Sherman Act Is an Important
Error of Law.
A. The Eighth Circuit’s reasoning is flawed.
Plaintiffs presented evidence both that C&S
agreed to allocate the entire Midwest territory to SuperValu and that C&S agreed to allocate small, independent Midwest grocers (such as plaintiffs) to SuperValu while still reserving some rights to at least approach larger, chain grocery stores in the same territory. See Part III, infra.
Despite this evidence, the directive from Topco,
and holdings in other circuit courts, the district court
rejected plaintiffs’ objections that the special verdict
form and related instructions should permit the jury
to find that C&S violated the Sherman Act if C&S
agreed either to allocate territories or to allocate customers. As the district court put it:

22
[T]he special verdict form is obviously constructed in light of the evidence which has
been received at trial and is tailored to address the specific issues of the case, and I
think the agreement in this case has always
had a hybrid of territories and customers
within territories. There aren’t separate
agreements about territories separate from
customers. And I think the “and” language
has consistently been used throughout the
trial and pleadings and the way the case has
been presented so that the jury won’t be confused by the territories and customers and
treating them in conjunction with each other.
Pet. App. 12a. The court’s explanation reveals its error. Plaintiffs should not have been required to prove
“separate agreements” in order to have C&S’s conspiracy evaluated under separate theories of territorial allocation and customer allocation. Put another way,
even a single agreement necessarily violates the Sherman Act if it involves either a territorial allocation or
a customer allocation, without regard to the fact that
the plaintiff alleges that it involves both. Indeed, under the law of this Court and that of every other circuit
that has addressed this issue, the same agreement or
conspiracy can separately establish a customer allocation or a territorial allocation, or both. See Part I, infra.
Accordingly, plaintiffs were entitled to a finding of
a Sherman Act violation if C&S’s agreement with SuperValu amounted to either kind of per se violation. In
other words, whatever kind of conspiracy plaintiffs alleged and sought to prove, the law should treat that
conspiracy as a per se violation if it has either of the
market-division characteristics discussed above. Any

23
holding requiring the plaintiffs to prove both allocations thus necessarily reflects the wrong legal rule, regardless of how plaintiffs presented their case.
The Eighth Circuit’s contrary conclusion simply
tacks on to the correct legal test or instruction a further showing that the plaintiff need not make. The
panel thus upheld the district court’s use, over plaintiffs’ express objection, of a verdict form that required
the jury to find that defendant C&S agreed to allocate
both customers and territories in order to find any
Sherman Act violation, along with a jury instruction
that impermissibly conflated the two claims.
As the foregoing indicates, the Eighth Circuit’s erroneous reasoning is in no way saved by the panel’s
finding that “D&G’s theory in the case melded the two”
claims. Pet. App. 6a. The panel suggested that, while
“D&G argued that C&S and SuperValu agreed to allocate customers in the Midwest and New England,” it
did not contend “that C&S agreed to divide up customers outside those regions or to allocate those territories
without allocating customers in them.” Id. But under
the correct legal rule, that is entirely beside the point
because if the agreement amounts to either kind of per
se illegal agreement, a Sherman Act violation has been
established without regard to the plaintiffs’ contention
that the agreement “melds” both kinds of violations
and so is doubly inappropriate.
Moreover, the Eighth Circuit’s reasoning is manifestly illogical. All customers are located somewhere
(e.g., the Midwest, the United States, the Mid-Atlantic, California), and by the Eighth Circuit’s logic, all
agreements to allocate customers are thus agreements
to allocate customers within a certain territory and
thus are “melded” with a territorial allocation in the

24
minimal sense indicated by the panel. The result of
the panel’s opinion is thus that any plaintiff bringing
a customer allocation claim will be forced to prove that
the defendant agreed to allocate customers and territories in order to win a jury verdict. The Eight Circuit’s novel rule thereby erroneously eliminates customer allocation as a separate, per se violation of the
Sherman Act.
Contrast this reasoning with the approach taken
not only in the other circuits (Part I, supra) and this
Court (Part II.B., infra), but also in the American Bar
Association (ABA) model instructions. The ABA
model instructions recognize that a customer allocation may include a geographic component while remaining distinct from a territorial allocation. The first
element of a customer allocation is that “defendant
and one or more other persons agreed that [state nature of allocation alleged, e.g., one would not submit a
lower bid in the county in which the other was located].” Pet. C.A. App. 245 (reproducing excerpts of
ABA, Model Jury Instructions in Civil Antitrust Cases
(2016)). The bracketed text plainly suggests that parties should insert a common-sense reference to location if applicable. But as the model instructions illustrate, describing the location of the allocated customers does not convert a customer allocation into a territorial allocation and does not “meld” them into a single
per se Sherman Act violation. Each claim retains its
separate character; that is why the ABA model instructions also include a separate instruction for territorial allocation. Id. at 247-48 (requiring plaintiff to
prove that “defendants agreed that they would not
compete with each other in certain territories or geographic areas”). The gist is that a territorial allocation

25
excludes competition for all customers within the territory, whereas a customer allocation excludes competition for certain customers regardless of whether or
not those customers are further identified as located
within a certain territory.
These cases and the ABA model jury instructions
thus show that the Eighth Circuit erred in upholding
the district court’s instructions and verdict form. That
straightforward error leaves the Eighth Circuit alone
among the courts of appeals, and this Court should
bring it back in line with its own precedent and its sister circuits.
B. The Eighth Circuit’s rule will harm
customers if allowed to stand.
Without the ability to bring a customer allocation
claim as a separate per se violation of the Sherman
Act, there will be no practicable private remedy for a
common anticompetitive practice that clearly harms
competition and consumers. Topco is instructive. Although the Court in Topco concluded the territorial allocation alone was enough to constitute a per se violation of the Sherman Act, the Court did not end its analysis of the conspiracy there. Topco, 405 U.S. at 612.
Instead, the Court separately addressed the conspirators’ agreement that members of the cooperative association receive permission before selling products at
wholesale, emphasizing this scheme constituted an allocation of customers which, independent from the territorial division scheme, had the purpose of inhibiting
trade with no redeeming quality. See id. at 608, 612.
In doing so, the Court underscored that customer allocation schemes, by themselves, have “no purpose except stifling of competition,” and therefore receive per

26
se treatment. Id. at 608, 612 (internal quotation
marks omitted).
For a century now, the Court has recognized that
certain agreements in restraint of trade between horizontal competitors, such as those at issue here, clearly
harm competition and consumers to such an extent
that per se treatment is appropriate. The purpose and
spirit of the antitrust laws are undermined whenever
a court makes it more difficult to demonstrate that a
naked horizontal restraint of trade should be found anticompetitive. Accordingly, it is inconsistent with the
Court’s approach to per se rules for there to exist a requirement that in order to be found anticompetitive,
an agreement between horizontal competitors that
qualifies for per se treatment must also be shown to
restrain trade in another way.
Territorial market allocations have been considered unlawful since the passage of the Sherman Act,
and per se violations for nearly half a century. Customer allocations have reached similar status: The
first determination of illegality was more than a half
century ago. If the Eighth Circuit’s elimination of customer allocation as an independent claim were allowed to stand, it would not be because it re-evaluated
the harm to competition by the allocation of customers
between horizontal competitors—such allocations
clearly remain harmful, whether complete territorial
allocation is proven or not. The protection against
such naked restraints by the per se rule will thus be
missing in the Eighth Circuit for no reason other than
legal error, and that error should be remedied by this
Court.

27
III. This Case Is an Ideal Vehicle for Correcting
This Error and Resolving This Split.
This case is a particularly strong vehicle to establish that customer allocation and territorial allocation
can each be brought as separate per se theories in a
single case. At every stage of the proceedings below,
the allegations, arguments, and evidence supported
both a finding of customer allocation and a finding of
territorial allocation, and plaintiffs’ proposed jury instructions and special verdict form clearly and expressly delineated the two. The question presented
was thus addressed squarely, and resolved erroneously, by the district court and by the Eighth Circuit
panel. The question presented has thus been well preserved throughout the record below.
Plaintiffs’ Second Consolidated Amended Class
Action Complaint alleged that C&S’s agreement violated the Sherman Act if C&S’s agreement constituted
either (i) a territorial allocation or (ii) a customer allocation. See Pet. C.A. App. 26 ¶ 70(a) (listing one of the
common questions of law or fact as “Whether the Defendants combined, agreed or conspired to allocate territories or customers for full-line grocery wholesale
goods and services....”) (emphasis added); cf. id. at 30
¶ 83 (“As a direct and proximate result of Defendants’
violations of the Sherman Act….”) (emphasis added).
Then, at the pre-trial conference, plaintiffs explicitly confirmed that they were pursuing both of these
independent claims. See Resp. C.A. App. 13 (Tr. 51:510) (“THE COURT: But is this a customer allocation
case, do you think, or a territorial? MR. BRUCKNER:
Well, we think it’s both, Your Honor. I mean, we think
they allocated customers in those geographic markets,
but we also think it was a territory-wide or geographic

28
area-wide agreement.”). Plaintiffs’ commitment to
these two separate claims at trial was reflected in the
discussion of jury questions at the same pre-trial conference. Id. at 14 (Tr. 53:1-12) (“THE COURT: … And
you’re willing, as I understand all of the pleadings at
this point, to rise or fall upon a jury answering a question—and I’m not formulating the way it would be, but
was there a secret agreement between SuperValu and
C&S to divide up customers and/or territories or what
we work onto that would be a per se violation if proved?
MR. BRUCKNER: Exactly right, Your Honor…. [W]e
think the jury should be told exactly what you just
said….”) (emphasis added).
At the pre-trial conference, plaintiffs clearly identified that they had asserted “two different claims,”
both “a customer allocation claim and a geographic
territory allocation claim.” Pet. C.A. App. 104:11-15.
Plaintiffs thus requested that the jury determine
whether the wholesalers’ real agreement was a “geographic-wide allocation” or a more limited one in
which “C&S and SuperValu agreed not to compete for
customers within those areas, those being the independent retail grocers that we represent and that are
in our classes.” Id. at 104:16-105:9.
Accordingly, the plaintiffs’ evidence at trial supported (and the defendants’ evidence attacked) each of
the two per se violations plaintiffs alleged. Plaintiffs
provided sufficient evidence to permit a reasonable
jury to conclude that C&S’s agreement with SuperValu involved allocating territories (the Midwest and
New England). Among other things, this evidence included “revealing ... e-mails, written by C&S’s executive vice president [Mark Gross], indicating ‘the basis
of the deal’ was that SuperValu would ‘depart[] from

29
New England’ and ‘wo[uld]n’t compete with [C&S] in
New England’ and C&S was ‘not interested in a transaction that leaves SuperValu in New England’” because “all customers in New England are part of the
deal” and SuperValu “is agreeing to leave New England. We are not on board [with] a deal that excludes
New England customers shipped from some other facility” since C&S and SuperValu “have always been
discussing [SuperValu’s] departure from New England. No carve-outs.” In re Wholesale Grocery Prods.
Antitrust Litig., 752 F.3d 728, 734 (8th Cir. 2014); Pet.
C.A. App. 172, 174. These were supported by further
statements from C&S Senior Vice President Mark
Gross stating that “SVU is agreeing to leave New England,” and “SuperValu does not want to compete with
us anywhere.” Pet. C.A. App. 199-202, 203. The jury
heard that, after C&S’s agreement with SuperValu,
SuperValu’s then-CEO Jeff Noddle stated that “the
two companies will not be competing at the wholesale
level anywhere in the United States.” Id. at 204. This
is stark evidence of a per se violation of the Sherman
Act.
To refute this theory, defendants suggested that
no such agreement actually existed, because C&S continued to serve chain stores with locations in the Midwest. But this gambit was exactly what plaintiffs’ separate customer allocation theory was meant to cut off.
As plaintiffs explained to the jury, C&S had abandoned any effort to serve independent (i.e., non-chain)
grocers in the Midwest, allocating those customers to
SuperValu. And that was proven in part by the fact
that, prior to the AEA, C&S had started a major
“push” to serve precisely those customers from its Maple Heights, Ohio distribution center (Pet. C.A. App.

30
117:23-119:2), which C&S Chairman and President
Rick Cohen said was a “beachhead in the Ohio market”
where C&S was “looking to add additional customers”
(id. at 115:25-116:14). After C&S signed the AEA, this
major push for new Midwest independent grocers
stopped dead and the record accordingly reflected not
a single sale to an independent Midwest grocer after
the AEA was consummated. Had the jury been correctly instructed on the customer allocation theory
and its independent sufficiency, this evidence would
have been a very strong basis for the jury to conclude
that a per se violation had in fact been committed.
Indeed, after the presentation of the evidence (and
expecting to get a legally correct instruction), plaintiffs
explicitly distinguished between their territorial allocation claim and their customer allocation claim, and
argued that the jury should return a verdict for plaintiffs even if C&S competed for some chain customers
in the Midwest:
[I]f you find, for example, that C&S agreed
not to compete for independent grocers in the
Midwest, you should find for the plaintiff, and
we think in fact the agreement is broader
than that, but if you disagree, you’re the judge
of the facts. If you disagree and find that
C&S, well, maybe they competed for some
chains, but they didn’t compete for independent retailers, then you should answer yes to
Question 1.
Pet. C.A. App. 159:3-10. And yet, when it was presented to the jury on the verdict form and in instruction 20, the relevant question required not just the allocation of independent grocer customers, but both

31
that allocation and a territorial allocation as well. See
Pet. App. 21a, 24a.
The foregoing indicates that the plaintiffs’ dual
per se theories of the case could hardly have been more
clear, which makes this case a particularly good vehicle for analyzing the error alleged. Given this theory,
plaintiffs requested, but were denied, a separate instruction and standalone special verdict form question
on whether C&S agreed with SuperValu to allocate
customers. See, e.g., Pet. C.A. App. 73. And obtaining
that instruction was crucial to its alternative theory of
the case. But the district court’s Instruction No. 20
ultimately contained no instruction on customer allocation at all, to which plaintiffs objected. Pet. App. 9a14a, 21a-23a. Under plaintiffs’ proposed jury instructions and special verdict form, C&S would have been
found to have violated the Sherman Act if the jury concluded either that C&S agreed to allocate certain customers in the Midwest to SuperValu or that C&S
agreed to allocate the entire Midwest to SuperValu.
Id. at 10a-11a (“And our point is that if we prove either
one, we’re entitled to prevail, therefore we think that
it ought to say ‘or’—‘or’ at the least, ‘and/or.’ So we
would object to that instruction on that basis.”). But
the district court denied precisely that instruction,
and the Eighth Circuit affirmed, squarely presenting
the question plaintiffs’ petition presents here.
As a result, this case provides an excellent vehicle
for this Court to resolve a circuit split, reaffirm decades of case law regarding the purpose and scope of
per se antitrust violations, and distinguish between
territorial and customer allocations that present in the
same set of facts but nevertheless constitute independent per se violations of the antitrust laws. Under the

32
rule established in the Seventh Circuit in Hammes,
and the conclusions drawn by other circuit courts of
appeals in establishing customer allocation as a separate per se violation even when no territorial allocation
is present, plaintiffs should not need to prove that defendant C&S agreed to allocate both customers and
territories. But under the rule established by the
Eighth Circuit in the instant case, decades of case law
establishing customer allocation as a per se violation
is in doubt. This Court should grant the petition, resolve this disagreement, and reverse.
CONCLUSION
For the foregoing reasons, the petition for a writ
of certiorari should be granted.
Respectfully submitted,
Richard B. Drubel
Matthew J. Henken
BOIES SCHILLER
FLEXNER LLP
26 South Main Street
Hanover, NH 03755
(603) 643-9090
W. Joseph Bruckner
Kate M. Baxter-Kauf
LOCKRIDGE GRINDAL
NAUEN P.L.L.P.
100 Washington Avenue
South, Suite 2200
Minneapolis, MN 55401
(612) 339-6900
November 6, 2020

Eric F. Citron
Counsel of Record
Charles H. Davis
Erica Oleszczuk Evans
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
ec@goldsteinrussell.com
Daniel A. Kotchen
Daniel L. Low
KOTCHEN & LOW LLP
1745 Kalorama Road NW,
Suite 101
Washington, DC 20009
(202) 471-1995

APPENDIX

1a
APPENDIX A
________________________________
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 18-2121
___________________________
In re: Wholesale Grocery Products Antitrust
Litigation
___________________________
D&G, Inc., doing business as Gary’s Foods;
Blue Goose Super Market, Inc.; Nemecek Markets,
Inc.; Millennium Operations, Inc., doing business as
Dick’s Market; Elkhorn-Lueptows, Inc.;
Jefferson Lueptows, Inc.; East Troy Lueptows, Inc.,
Plaintiffs - Appellants,
v.
C&S Wholesale Grocers, Inc.,
Defendant - Appellee.
___________________________
Appeal from United States District Court for the
District of Minnesota - Minneapolis
___________________________
Submitted: October 15, 2019
Filed: April 27, 2020
___________________________
Before COLLOTON, BEAM, and KELLY, Circuit
Judges.
___________________________

2a
COLLOTON, Circuit Judge.
D&G, Inc., an independent grocery retailer,
brought an antitrust suit against C&S Wholesale Grocers, Inc., on behalf of a class of grocery retailers. The
retailers alleged that C&S agreed with another grocery wholesaler, SuperValu, Inc., not to compete for
customers in certain geographical areas. A jury returned a verdict in favor of C&S. D&G appeals, arguing that the district court1 erred in its instructions to
the jury. We conclude that the instructions fairly and
adequately submitted the issues, and we therefore affirm the judgment.
I.
C&S Wholesale Grocers, Inc., provides wholesale
grocery services to grocery retail stores primarily in
the northeastern United States. In 2003, C&S purchased substantially all the assets of Fleming, a nationwide grocery wholesaler, during Fleming’s bankruptcy. C&S later entered into an asset exchange
agreement with SuperValu, a grocery wholesaler
headquartered near Minneapolis. C&S transferred
Fleming’s assets and customers located in the Midwest to SuperValu in exchange for SuperValu’s assets
and customers located in New England. C&S and SuperValu agreed not to supply the exchanged customers
for two years after the sale and not to solicit the exchanged customers for five years after the sale.
This transaction prompted extensive antitrust litigation. Customers of both C&S and SuperValu sued
the wholesalers, asserting that the written agreement

1

The Honorable Ann D. Montgomery, United States District
Judge for the District of Minnesota.

3a
and a separate unwritten understanding violated the
Sherman Act, 15 U.S.C. § 1. The district court certified five classes of plaintiffs, all grocery retailers, who
brought antitrust claims against C&S and SuperValu
arising from the transaction. This court has addressed
other aspects of the litigation in three previous appeals. See In re Wholesale Grocery Prod. Antitrust
Litig., 946 F.3d 995 (8th Cir. 2019); In re Wholesale
Grocery Prod. Antitrust Litig., 752 F.3d 728 (8th Cir.
2014); In re Wholesale Grocery Prod. Antitrust Litig.,
707 F.3d 917 (8th Cir. 2013).
D&G, Inc., is an independent grocery store representing one of the classes that sued C&S. D&G and
the class assert that the agreement between C&S and
SuperValu was an illegal antitrust conspiracy. The
class alleged that C&S violated the Sherman Act by
agreeing with SuperValu to allocate customers and
territories for full-line grocery wholesale goods and
services, and that this anti-competitive conduct
caused retailers to pay supracompetitive prices for
wholesale goods and services.
D&G’s case eventually proceeded to trial in April
2018. D&G’s theory was that in addition to the written agreement about exchanging assets and existing
customers, C&S and SuperValu had an unwritten
agreement that C&S would not compete for new customers in the Midwest and that SuperValu would not
compete for new customers in the Northeast. Alternatively, as the case developed at trial, D&G claimed
that even if C&S did not agree to forego competition
for all new customers in the Midwest, C&S at least
agreed that it would not compete for new business
from a subset of potential new customers—namely, independent grocery retailers—in that region. After a

4a
two-week trial, a jury returned a verdict for the defendant C&S.
II.
D&G’s argument on appeal is that the district
court erred in formulating one jury instruction and the
verdict form. The district court gave Final Jury Instruction No. 20 as follows:
Plaintiffs claim that C&S violated Section 1 of
the Sherman Act by entering into an Unwritten Agreement with SuperValu to allocate customers and territories along geographic lines.
Allocate means to divide.
....
To prevail on this claim against C&S, Plaintiffs must prove each of the following elements
by a preponderance of the evidence: (1) C&S
and SuperValu were competitors or potential
competitors; (2) C&S and SuperValu entered
into a conspiracy—specifically, the Unwritten
Agreement—in which C&S agreed that it
would not compete with Supervalu for new
customers in certain territories or geographic
areas; and (3) Plaintiffs were injured in their
business or property because of the Unwritten
Agreement.
R. Doc. 1232, at 21-22.
The district court also asked the jury, on a special
verdict form, the following question: “Did the Plaintiffs
prove that C&S and SuperValu were competitors or
potential competitors, and that they entered into an
Unwritten Agreement to divide territories and customers along geographic lines which restricted

5a
competition more broadly than the Asset Exchange
Agreement?” R. Doc. 1233.
We review the district court’s jury instructions, including special verdict forms, for abuse of discretion.
Wilkins v. St. Louis Hous. Auth., 314 F.3d 927, 932
(8th Cir. 2002). The pertinent question is “whether
the instructions, taken as a whole and viewed in light
of the evidence and applicable law, fairly and adequately submitted the issues in the case to the jury.”
M.M. Silta, Inc. v. Cleveland Cliffs, Inc., 572 F.3d 532,
536 (8th Cir. 2009) (quoting Bass v. Flying J, Inc., 500
F.3d 736, 739 (8th Cir. 2007)). An error requires a new
trial if it had a substantial influence on the verdict.
Kotteakos v. United States, 328 U.S. 750, 765 (1946).
D&G argues that the district court mistakenly required the plaintiffs to prove that C&S and SuperValu
agreed to allocate both customers and territories, but
that proof of an agreement to divide one or the other
should have been sufficient to establish a per se violation of the Sherman Act. See United States v. Topco
Assocs., Inc., 405 U.S. 596, 608-12 (1972). D&G focuses on the first sentence of the jury instruction,
which referred to a claim that the wholesalers agreed
“to allocate customers and territories along geographic
lines.” And D&G highlights the question in the special
verdict form asking whether the plaintiffs had proved
an agreement “to divide territories and customers
along geographic lines.”
D&G proposed different instructions and maintains that the district court should have used them instead. D&G asked for instructions on two different
claims. The submission on “Claim 1—Allocation of
Customers” would have required proof that “C&S
agreed with Supervalu to divide up customers along

6a
geographic lines.” R. Doc. 1138, at 37. The proposed
instruction for “Claim 2—Allocation of Territories or
Geographical Areas” asked whether the plaintiffs had
proved that “C&S agreed that it would not compete
with Supervalu in certain territories or geographic areas.” R. Doc. 1138, at 39-40.
Whether the jury instructions fairly and adequately submitted the issues to the jury must be considered in light of the evidence and legal theories advanced in a particular case. While it is true that an
agreement to allocate either customers or territories
could violate the Sherman Act, D&G’s theory in this
case melded the two. D&G argued that C&S and SuperValu agreed to allocate customers in the Midwest
and New England. There was no contention that C&S
agreed to divide up customers outside those regions or
to allocate those territories without allocating customers in them. It was therefore understandable and consistent with the evidence and arguments for the district court to instruct that D&G must prove that “C&S
agreed that it would not compete with Supervalu for
new customers in certain territories or geographic areas.” Likewise, the reference in the verdict form to “an
Unwritten Agreement to divide territories and customers along geographic lines” is consistent with
D&G’s primary theory throughout the case—namely,
that C&S and SuperValu agreed to allocate new customers in the Midwest to one company and new customers in New England to the other.
D&G complains that the instructions did not allow the jury adequately to consider its alternate theory
that the defendants agreed to allocate a certain segment of the new customers in the two regions (i.e., independent grocery retailers) even if they did not divide

7a
up all new customers in the two territories. Final Instruction No. 20, however, was sufficient to accommodate the alternate theory. It did not require a finding
that the defendants agreed to allocate all new customers. The marshaling instruction said that D&G must
prove an agreement that C&S “would not compete
with Supervalu for new customers in certain territories or geographic areas.” If the jury was convinced
that C&S agreed that it would not compete with SuperValu for new independent grocer customers in the
Midwest, then there was ample room under the instructions to find liability.
We are fortified in this conclusion by the fact that
D&G’s proposed instructions do not differ meaningfully from the final instruction on this issue. D&G proposed separate instructions asking whether “C&S
agreed with Supervalu to divide up customers along
geographic lines” or whether “C&S agreed that it
would not compete with Supervalu in certain territories or geographic areas.” Neither of these instructions parses a distinction between all new customers
and a subset of new customers. D&G’s proposed reference to dividing up “customers” along geographical
lines is no different from the final instruction’s focus
on allocating “new customers” in certain territories or
geographical areas. If D&G’s proposed instruction
could accommodate a theory of liability based on dividing up independent grocery retailers along geographical lines, then Final Instruction No. 20 could too.
We are not convinced by D&G’s contention that
the reference in the verdict form to the defendants dividing “territories and customers along geographic
lines” misled the jury. The jury was told in Final Instruction No. 20 that it “must find” liability if “C&S

8a
agreed that it would not compete with Supervalu for
new customers in certain territories or geographic areas.” We consider the instructions as a whole and
evaluate the verdict form in light of the instructions.
If the jury was persuaded that C&S agreed not to compete for new independent grocer customers in the Midwest, such that it was directed to find for the plaintiffs
under the jury instruction, then it is not reasonably
likely that any variation between the wording of the
instruction and the verdict form caused the jury to believe that it must reject D&G’s claim. As Chief Justice
Rehnquist once wrote for the Court:
Jurors do not sit in solitary isolation booths
parsing instructions for subtle shades of
meaning in the same way that lawyers might.
Differences among them in interpretation of
instructions may be thrashed out in the deliberative process, with commonsense understanding of the instructions in light of all that
has taken place at the trial likely to prevail
over technical hairsplitting.
Boyde v. California, 494 U.S. 370, 380-81 (1990).
***
The judgment of the district court is affirmed.

9a
APPENDIX B
________________________________
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
In re: Wholesale Grocery Court File No. 09-MDProducts Antitrust
2090 ADM/TNL
Litigation
Courtroom 13 West
Thursday, April 19,
2018
Minneapolis, Minnesota
9:30 A.M.
[1447]
JURY TRIAL PROCEEDINGS
( VOLUME IX )
BEFORE THE HONORABLE ANN D.
MONTGOMERY
SENIOR UNITED STATES DISTRICT JUDGE
AND A JURY
***
[1452]
***
THE COURT: … [1453] The record should reflect
that we have had an ongoing process with regard to
the jury instructions and the special verdict form. I’ve
been—your arguments and positions have been relayed back to me through my law clerks in this process
and we have made a number of rulings which are incorporated in the final set of instructions that you have
now been provided, but I want to make sure you have

10a
an opportunity to make any record you would like as
to the rulings which have been made.
Let’s start with the special verdict form. Mr.
Bruckner, does the plaintiff wish to preserve any objections to the Court’s proposed special verdict form?
MR. BRUCKNER: Yes, Your Honor, we do. We
have two.
THE COURT: Okay.
MR. BRUCKNER: On the special verdict form in
Question Number 1, specifically what we would propose is to change language so that it would read:
“Did the Plaintiffs prove that C&S and SuperValu
were competitors or potential competitors, and that
they entered into an Unwritten Agreement to divide
territories”—we would change the word “and” to “or,”
or at least at a minimum we would change it to
“and/or,” a phrase only lawyers can love, and the point
is this, Your Honor, the reason is this:
[1454] We do allege that C&S entered into an
agreement to allocate customers and territories, but it’s
our view and our position that if we prove either one,
we’re entitled to prevail. So it does say “and” throughout the instructions, “customers and territories.”
THE COURT: And in the complaint.
MR. BRUCKNER: Correct, and in the complaint.
THE COURT: And the Eighth Circuit—
MR. BRUCKNER: Absolutely. And that’s all accurate.
THE COURT: Okay.
MR. BRUCKNER: And our point is that if we
prove either one, we’re entitled to prevail, therefore we

11a
think that it ought to say “or”—“or” at the least,
“and/or.” So we would object to that instruction on
that basis.
The other point on the verdict form and throughout the instructions, as we have raised with Your
Honor’s law clerks, rather than call it an unwritten
agreement, we would suggest that the Court refer to it
as the broader agreement. We think that is clearer. It
is more accurate. It will avoid the inevitable jury confusion that if they are instructed that they must find
an unwritten agreement, a juror could conclude: Well,
I saw lots of writings about this broader agreement. I
saw some emails and I saw some internal corporate
presentations, so those are in writing [1455] and
therefore I guess that’s not the agreement that they’re
talking about.” So wherever it says “unwritten,” we
would propose to change that to “broader.”
THE COURT: And that would be true throughout
the instructions.
MR. BRUCKNER: Correct, correct.
I would note just for purposes of clarifying, for example, on Jury Instruction Number 23, if there is a
concern that calling it the broader agreement does not
sufficiently differentiate it from the written AEA
agreement, if you look on Jury Instruction Number 23
in the third paragraph, it reads:
“You must decide whether C&S’s decision about
whether and how to do business in the Midwest was
more probably than not the result of”—if you change
the word “unwritten” to “broader,” it would say: “the
result of a broader agreement or understanding between C&S and SuperValu that was above and beyond
the written AEA.”

12a
I don’t think anything could be more clear than
that the two agreements are being differentiated.
So those are our two points on the special verdict
form. We would object to the form as presently drafted
on those two grounds and I think that’s all I have on
the verdict form.
THE COURT: All right. Well, the special verdict
[1456] form is obviously constructed in light of the evidence which has been received at trial and is tailored
to address the specific issues of the case, and I think
the agreement in this case has always had a hybrid of
territories and customers within territories. There
aren’t separate agreements about territories separate
from customers. And I think the “and” language has
consistently been used throughout the trial and pleadings and the way the case has been presented so that
the jury won’t be confused by the territories and customers and treating them in conjunction with each
other.
We gave a lot of thought to how to call this unwritten agreement something other than “secret agreement” or lawyerly language about “broader” or “supplemental” agreement and decided that—I decided
that “unwritten” was the fairest way to label the issue
for the jury to distinguish between the AEA and what
else is happening.
I think the concern about jury confusion as to
whether emails or documentary issues that circumstantially may prove an unwritten agreement are really handled by the instructions as we sort that out
and certainly can be addressed in argument, that
there are—that these emails and the circumstantial
evidence which may be construed as showing an

13a
unwritten agreement should be and can be considered
as part of the evidence to prove that there was [1457]
such an agreement.
So both of those issues are noted and preserved,
but overruled, and the Court based on the plaintiffs’
objections will stay with the special verdict form as
proposed.
***
[1466]
***
MR. BRUCKNER: The only other point that we
would note, Your Honor, is on the Court’s Instruction
Number 20. And as I understand it, it is an effort to
address both the customer allocation claim and the
territorial allocation claim in one instruction, and
we’ve noted our objection to the verdict form on that
ground and we hope—or we intend that to apply to the
instruction as well.
THE COURT: It does.
MR. BRUCKNER: My additional point on that,
Your Honor, is that if the Court is going to proceed
with a single unitary instruction on customer and territorial allocation, is that the Court ought to include
the paragraph from the model instructions on customer allocation.
On Jury Instruction Number 20 in the third paragraph there is the paragraph from the model rules on
describing a conspiracy to allocate territories or geographic areas. What we would think would be appropriate is that after that paragraph the Court add the
paragraph from the model instructions, and that
was—that was captured in our proposed customer

14a
allocation instruction, which was in document number
1138 in this case on page 37. [1467] And that paragraph, additional paragraph, we think ought to be included would read:
“A conspiracy to allocate customers is an agreement between two or more competitors not to compete
with one another for the business of particular customers. Customer allocation exists, for example, where
two or more competitors agree that they will not sell
or try to sell to one another’s existing customers or to
certain customers along geographic lines.”
That’s from our proposed instruction—
THE COURT: And I see that’s from the model instructions as well.
MR. BRUCKNER: Correct. So we would note our
objection to Instruction No. 20 to the extent that that
paragraph is not included in what is told to the jury.
THE COURT: All right. Noted.
And I take it, Mr. Hochstadt, the defense opposes
the separation out of the customer and territorial arguments in the context of the case.
MR. HOCHSTADT: Yes. That will lead to the
same jury confusion with the AEA not being challenged.
THE COURT: I think we’ll be consistent on that.
The objection is noted, but I won’t break out or bifurcate the issues with regard to the agreement between
customers and territories given the fact that the evidence says that [1468] they were treated here as together throughout the case.
***

15a
APPENDIX C
________________________________
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-2121
___________________________
In re: Wholesale Grocery Products Antitrust
Litigation
________________________________
D&G, Inc., doing business as Gary’s Foods, et al.
Appellants
v.
C&S Wholesale Grocers, Inc.
Appellee
________________________________
Appeal from U.S. District Court for the District of
Minnesota – Minneapolis
(0:09-md-02090-ADM)
________________________________
ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
Judge Stras did not participate in the consideration or decision of this matter.
June 09, 2020
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

16a
APPENDIX D
________________________________
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
In re: Wholesale Grocery JUDGMENT IN A
Products Antitrust
CIVIL CASE
Litigation
Case Number:
09md2090 ADM/TNL


Jury Verdict. This action came before the Court
for a trial by jury. The issues against C&S Wholesale Grocers, Inc. have been tried and the jury has
rendered its verdict.



Decision by Court. This action came to trial or
hearing before the Court. The issues have been
tried or heard and a decision has been rendered.

IT IS ORDERED AND ADJUDGED THAT:
The claim against Defendant C&S Wholesale Grocers, Inc. has been tried and a decision has been rendered. The jury found for Defendant C&S Wholesale
Grocers, Inc.
There being no just reason for delay, pursuant to
Rule 54(b) of the Federal Rules of Civil Procedure, the
Clerk is hereby directed to enter this Partial Final
Judgment.
Date: April 20, 2018

KATE M. FOGARTY, CLERK

s/Jackie Ellingson
(By) Jackie Ellingson, Deputy Clerk
s/Ann D. Montgomery
Ann D. Montgomery
U.S. District Court Judge

17a
APPENDIX E
________________________________
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
In re: Wholesale Grocery AMENDED
Products Antitrust
JUDGMENT IN A
Litigation
CIVIL CASE
Case Number:
09md2090 ADM/TNL
[Filed: May 23, 2018]


Jury Verdict. This action came before the Court
for a trial by jury. The issues against C&S Wholesale Grocers, Inc. have been tried and the jury has
rendered its verdict.



Decision by Court. This action came to trial or
hearing before the Court. The issues have been
tried or heard and a decision has been rendered.

IT IS ORDERED AND ADJUDGED THAT:
The claim against Defendant C&S Wholesale Grocers, Inc. has been tried and a decision has been rendered. The jury found for Defendant C&S Wholesale
Grocers, Inc.
The claim against Defendant C&S Wholesale Grocers, Inc., involved five classes certified under Fed. R.
Civ. P. 23(b)(3) (the “Classes”). ECF Nos. 647, 651.
The certified Classes are defined as follows:
The Champaign DC Non-Arbitration Class:
All customers that paid ABS fees on wholesale grocery
products in all four SuperValu ABS product categories
(grocery, dairy, frozen, and general merchandise/

18a
health and beauty care) purchased directly from SuperValu’s Champaign, Illinois DC from December 31,
2004 through September 13, 2008 (the “Class Period”),
are located in the relevant geographic market, and did
not have an arbitration agreement with SuperValu
during the Class Period.
The Champaign DC Arbitration Class: All
customers that paid ABS fees on wholesale grocery
products in all four SuperValu ABS product categories
(grocery, dairy, frozen, and general merchandise/
health and beauty care) purchased directly from SuperValu’s Champaign, Illinois DC from December 31,
2004 through September 13, 2008, are located in the
relevant geographic market, and had an arbitration
agreement with SuperValu during the Class Period.
The Green Bay DC Class: All customers that
paid ABS fees on wholesale grocery products in all four
SuperValu ABS product categories (grocery, dairy, frozen, and general merchandise/health and beauty care)
purchased directly from SuperValu’s Green Bay, Wisconsin DC from December 31, 2004 through September 13, 2008, and are located in the relevant geographic market.
The Hopkins DC Class: All customers that paid
ABS fees on wholesale grocery products in all four SuperValu ABS product categories (grocery, dairy, frozen, and general merchandise/health and beauty care)
purchased directly from SuperValu’s Hopkins, Minnesota DC from December 31, 2004 through September
13, 2008, and are located in the relevant geographic
market.
The Pleasant Prairie DC Class: All customers
that paid ABS fees on wholesale grocery products in

19a
all four SuperValu ABS product categories (grocery,
dairy, frozen, and general merchandise/health and
beauty care) purchased directly from SuperValu’s
Pleasant Prairie, Wisconsin DC from December 31,
2004 through September 13, 2008, and are located in
the relevant geographic market.
This partial judgment only applies to the claims
between the Classes above and Defendant C&S
Wholesale Grocers, Inc.
Excluded from each of the five Classes are:
a. the Court and its officers, employees, and relatives;
b. Defendants and their parents, subsidiaries, affiliates, shareholders, employees, and co-conspirators;
c. government entities;
d. any customer of either Defendant who, prior to
C&S and SuperValu’s September 6, 2003 AEA, entered into a contract with either Defendant that established the prices (including upcharges) the customer
would pay for wholesale grocery products and related
services throughout the entire Class Period and who
did not amend or renegotiate the prices set in such contract during the Class Period; and
e. Tops Friendly Markets, LLC and The Great
Atlantic & Pacific Tea Company, Inc. (also known as
A&P).
Notice was directed to the five Classes pursuant
to Fed. R. Civ. P. 23(c)(2) as “the best notice that is
practicable under the circumstances, including individual notice to all members who can be identified
through reasonable effort” on March 1, 2017. ECF No.
727. Notice was disseminated in accordance with this

20a
Order on April 27, 2017. ECF Nos. 742, 743. A list of
all persons and entities who timely requested exclusion was filed with the Court on July 31, 2017. ECF
No. 828.
Except for those class members who filed a timely
request for exclusion and appear in the list docketed
at ECF No. 828, all others not otherwise excluded as
above are deemed members of the Classes bound by
the judgment.
There being no just reason for delay, pursuant to
Rule 54(b) of the Federal Rules of Civil Procedure, the
Clerk is hereby directed to enter this Partial Final
Judgment.
Date: 5/22/18

KATE M. FOGARTY, CLERK
s/LP Holden
(By) LP Holden, Deputy Clerk

s/Ann D. Montgomery
Ann D. Montgomery
U.S. District Court Judge

21a
APPENDIX F
________________________________
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
In re Wholesale Grocery
Products Antitrust
Litigation

JURY
INSTRUCTIONS
Civil No. 09-MD-2090
ADM/TNL

[Filed Apr. 20, 2018]
*

*

*

Date submitted to jury: April 19, 2018
*

*

*

JURY INSTRUCTION NO. 20
Plaintiffs claim that C&S violated Section 1 of the
Sherman Act by entering into an Unwritten Agreement with SuperValu to allocate customers and territories along geographic lines. Allocate means to divide.
A business has the right to select its own geographic area or territory in which it will sell its products or services. Likewise, a business may decide not
to sell its products or services in a particular area or
territory, provided that the decision results from the
exercise of an independent business judgment and not
from any agreement with a competitor or potential
competitor. The Sherman Act, however, prohibits
agreements between competitors or potential competitors to allocate the territories or geographic areas in

22a
which they will market or sell their respective products or services.
A conspiracy to allocate territories or geographic
areas is an agreement between two or more competitors not to compete in territories or areas in which they
would have otherwise competed. By way of example,
this includes an agreement by two competitors not to
compete with each other in particular geographic areas; to confine their sales efforts to particular or different territories; to require one to discontinue sales in
an area where the other will continue to sell; or to not
submit competitive bids in certain territories.
To prevail on this claim against C&S, Plaintiffs
must prove each of the following elements by a preponderance of the evidence:
(1) C&S and SuperValu were competitors or potential
competitors;
(2) C&S and SuperValu entered into a conspiracy—
specifically, the Unwritten Agreement—in which
C&S agreed that it would not compete with Supervalu for new customers in certain territories or geographic areas; and
(3) Plaintiffs were injured in their business or property because of the Unwritten Agreement.
In deciding whether the second element has been
proven, you should refer to Jury Instructions 21, 22,
and 23 to determine whether Plaintiffs have proven an
Unwritten Agreement.
In deciding whether the third element has been
met, you should refer to Jury Instruction 24 to determine whether Plaintiffs were injured in their business
or property because of the alleged Unwritten Agreement.

23a
If you find that the evidence is insufficient to
prove any of these elements as to C&S, then you must
find for C&S and against Plaintiffs on this claim. If
you find that the evidence is sufficient to prove each
element as to C&S, then you must find for Plaintiffs
and against C&S on this claim.
*

*

*

24a
APPENDIX G
________________________________
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
In re: Wholesale Grocery Civil No. 09-MD-2090
Products Antitrust
ADM/TNL
Litigation
SPECIAL VERDICT
FORM
[Filed Apr. 20, 2018]
We, the jury in the above-titled matter, find the
following answers to the following questions submitted to us by the Court:
1.

Did the Plaintiffs prove that C&S and SuperValu
were competitors or potential competitors, and
that they entered into an Unwritten Agreement to
divide territories and customers along geographic
lines which restricted competition more broadly
than the Asset Exchange Agreement?
Yes _________ No ____X______

If you answer “Yes” to Question 1, answer Question 2.
If you answer “No” to Question 1, have your presiding juror sign and date the form; your Verdict
is complete.
2.

Did the Plaintiffs prove that they were injured by
the Unwritten Agreement between C&S and Supervalu, that the Unwritten Agreement was a material cause of Plaintiffs’ alleged injury, and that
Plaintiffs’ alleged injury is the type that the antitrust laws were intended to prevent?

25a
Yes _________ No __________
If you answer “Yes” to Question 2, answer Question 3,
If you answered “No” to Question 2, have your
presiding juror sign and date the form; your Verdict is complete.
3.

What is the amount of damages in the form of ABS
fee overcharges paid by Plaintiffs as a result of unlawful conduct of C&S for the five classes of grocers?

a. Champaign NonArbitration Class:
b. Champaign Arbitration
Class:
c. Green Bay Class:
d. Hopkins Class:
e. Pleasant Prairie Class:
Date: 19th April 2018

$ ________________
$ ________________
$ ________________
$ ________________
$ ________________

SIGNATURE REDACTED

